II
IN THE SUPREME COURT OF THE STATE OF
NEVADA
BOBBY FRANKLIN, D/B/A
DAYDREAM LAND &
SYSTEMS DEVELOPMENT
Appellant,
Vs.

) No. 81432

D.J. LAUGHLIN;
ATTORNEY WILLIAM R.

) Clerk of Supreme Court

URGA,
Respondents.

)

)

FILED

)
SEP 03 2020
) Elizabeth A. Brown
)
)

Bv /s/ illegible
Deputy Clerk

)

ORDER REGARDING MOTIONS
Appellant has filed an untimely motion
requesting an extension of time to file a petition for
rehearing. The motion is granted. NRAP
26(b)(1)(A); NRAP 40(a)(1). The clerk shall file the
petition for rehearing received on August 31, 2020.
Appellant's motion asking this court to dissolve
injunctions on the 80 acres of land allegedly in
dispute until the appeal is resolved is denied.
It is so ORDERED.
/s/Pickering. C.J.
/s/Silver. J.

/s/Hardestv.J.

cc: Bobby Franklin
D.J. Laughlin
Jolley Urga Woodbury Holthus & Rose

II

Ill

IN THE SUPREME COURT OF THE STATE OF
NEVADA
BOBBY FRANKLIN, D/B/A
DAYDREAM LAND &
SYSTEMS DEVELOPMENT,
Appellant,
Vs.
D.J. LAUGHLIN; ATTORNEY
WILLIAM R. URGA,
Respondents.

) No. 81432
)

) FILED
) JUL 30 2020
) Elizabeth A. Brown

)
Clerk of
) Supreme Court
) By: S. Young
_) Deputy Clerk

ORDER DISMISSING APPEAL
This is a pro se appeal from an order denying
appellant leave to file documents pursuant to his
designation as a vexatious litigant. Eighth Judicial
District Court, Clark County; Linda Marie Bell,
Judge.
Review of the documents submitted to this court
pursuant to NRAP 3(g) reveals a jurisdictional
defect. Specifically, the order designated in the
notice of appeal is not substantively appealable.
See NRAP 3A(b). This court has jurisdiction to
consider an appeal only when the appeal is
authorized by statute or court rule. Taylor Constr.
Co. v. Hilton Hotels, 100 Nev. 207, 678 P.2d 1152
(1984). No statute or court rule provides for an
appeal from an order denying a vexatious litigant
leave to file documents. Cf. Peck v. Crouser, 129
Nev. 120, 295 P.3d 586 (2013). This court lacks
jurisdiction and ORDERS this appeal DISMISSED.
Is/ Hardesty. J. Is/ Parraquirre, J. /s/Cadish, J.
cc: Linda Marie Bell, Chief Judge
Bobby Franklin
D.J. Laughlin
Jolley Urga Woodbury Holthus & Rose
Eighth District Court Clerk

III

IV
ELECTRONICALLY SERVED
6/4/2020 10:33 PM
Electronically Filed
06/04/2020
Is/ illegible
CLERK OF COURT

EIGHTH JUDICIAL DISTRICT COURT
CLARK COUNTY, NEVADA
BOBBY FRANKLIN,
Plaintiff,
Vs.
D.J. LAUGHLIN,
ET AL.,
Defendants.

) Case #A-20-815083-D
)

) Dept # 22
)
)
)

DECISION AND ORDER
Bobby Franklin filed a petition requesting
approval to file a complaint in the Eighth Judicial
District Court. In 2016, Mr. Franklin was declared
a vexatious litigant. Under the vexatious litigant
order, Mr. Franklin must obtain leave of the Chief
Judge of the Eighth Judicial District Court before
filing any new litigation. After review of Mr.
Franklin’s petition and complaint, the Court denies
Mr. Franklin’s petition.
The Clerk of the Court is directed to close case
A-20-815083-D and strike both of the documents
filed by Mr. Franklin into the case on May 15,
2020.
I. Factual and Procedural Background
Mr. Franklin has filed numerous actions in both
state and federal court related to an 80 acre parcel
of land located in Southern Nevada. The federal
courts have held that Mr. Franklin has no right to
the property at issue. Following the federal court
rulings, Mr. Franklin filed an action in the Eighth
Judicial District Court in which Mr. Franklin

IV

■ ■ -»A

V
asserted an ownership interest in the subject
property. Mr. Franklin was ordered to show cause
why he should not be declared a vexatious litigant.
The show cause hearing was held on March 1,
2016, and Mr. Franklin was present at the hearing.
On March 29, 2016, an order was issued
declaring Mr. Franklin a vexatious litigant. Under
the vexatious litigant order, Mr. Franklin may not
file any new litigation without first obtaining leave
from the Chief Judge of the Eighth Judicial District
Court. To obtain leave, Mr. Franklin’s new
litigation must be 1) meritorious; 2) not addressed
in another pleading; and 3) not related to the
subject property.
On May 15, 2020, Mr. Franklin filed a “Petition
to Chief Judge Linda Marie Bell to Approve
Franklin’s Right to File the Attached Complaint in
this Court.” Mr. Franklin also included a copy of his
proposed complaint.
II. Discussion
Mr. Franklin’s petition argues that his
complaint is meritorious because Mr. Franklin’s
first title legal right on the subject property “has
never been examined nor legally determined in any
court.” The record does not support Mr. Franklin’s
argument. Federal courts have found that Mr.
Franklin has no right to the property at issue. E.g..
Franklin v. United States. 46 F.3d 1140 (9th
Cir.1995); Franklin v. Laughlin. No. 10-CV-1027,
2011 WL 672328 (W.D.Tex. Feb. 15, 2011);
Franklin v. Chatterton. Order and Injunction, No.
2:07-CV-01400 (D. Nev. April 21, 2008), affd, 358
F. App'x 970 (9th Cir.2009); BWD Props. 2. LLC v.
Franklin. Order, No. 2:06—CV-01499 (D.Nev. Sept.
29, 2008). Additionally, the federal courts have
enjoined Mr. Franklin from bringing litigation
regarding his claims to the property and declared
Mr. Franklin a vexatious litigant. Franklin. Order

V

VI
and Injunction, No. 2:07—CV—01400 (D. Nev. April
21, 2008); BWD Props. 2. Order, No. 2:06—CV—
01499 (D.Nev. Sept. 29, 2008). Mr. Franklin’s
petition is therefore denied on these grounds.
Turning to Mr. Franklin’s complaint itself, the
complaint claims that Mr. Franklin was denied the
opportunity to examine his first title rights to the
property due to fraud by opposing counsel. Mr.
Franklin alleges that opposing counsel’s fraud
mislead the court in 2016. Mr. Franklin’s claim is
meritless because Mr. Franklin’s arguments fail to
support the claim. The Court addresses each
argument below:
1) Mr. Franklin argues that opposing counsel
lied when counsel stated “[Mr. Franklin’s title
rights] had been laid out in several federal courts.”
This argument is contradicted by the record. As
stated above, several federal courts have
determined that Mr. Franklin has no rights to the
property.
2) Mr. Franklin argues that opposing counsel
falsely stated that “the BLM rejected plaintiffs
action because the land was mineral in character.”
This argument is also contradicted by the record.
The BLM initially rejected Mr. Franklin’s action in
1988, but the BLM’s decision was reversed in 1990
because there had not been a mineral report to
determine if the land was “mineral in character.”
Following the reversal, the BLM obtained the
required mineral report. The report determined
that the land was “mineral in character” and, in
1993, the BLM rejected Mr. Franklin’s action on
the basis of the mineral report.
3) Mr. Franklin argues that opposing counsel
falsely stated that he was deemed vexatious. This
argument is baseless as Mr. Franklin had indeed
been deemed vexatious by the federal courts in
2008.

VI

VII
4) Mr. Franklin argues that opposing counsel
fraudulently argued that “the plaintiff s application
to purchase the property from the BLM was denied
due to their report, which indicated the land was
mineral in nature and not suitable for agricultural
purposes.” This argument is baseless because
opposing counsel’s statement was accurate as
explained in point 2 above.
5) Mr. Franklin argues that the BLM auction of
the property was criminal. This argument is
baseless because it is a bare allegation that is
unsupported by the record or any factual
allegations.
The Court finds that Mr. Franklin’s complaint is
meritless, raises claims and arguments that have
already been addressed in other pleadings, and is
related to the subject property. Therefore, Mr.
Franklin’s petition is denied.
III. Conclusion
The Court denies Mr. Franklin’s “Petition to
Chief Judge Linda Marie Bell to Approve
Franklin’s Right to File the Attached Complaint in
this Court” because Mr. Franklin’s proposed
complaint is meritless, raises claims and
arguments that have already been addressed in
other pleadings, and is related to the subject
property.
The Clerk of the Court is directed to close case
A-20-815083-D and strike both of the May 15, 2020,
filings.
Dated this 4th day of June, 2020
/s/LB
LINDA MARIE BELL
DISTRICT COURT JUDGE
C5B 80F 6362 A585

VII

